Office of
INSPECTOR GENERAL

 Audit Report




Audit of the USITC Financial Statements
for Fiscal Years 1992 and 1991


Report No. IG-02-93




                                          June 1993
                                           Date Issued
      INSPECTOR GENERAL




      UNITED STATES INTERNATIONAL TRADE COMMISSION

                            WASHINGTON, D.C. 20436

June 10, 1993


                    AUDIT 0' 1111 USI1'C fllWtCUL STATDtltftS
                         f01t fISCAL YIARS 1992 AMD 1991



The Budget and Accounting Procedures Act of 1950 states that agencies must
establish and maintain systems of accounting and reporting that provide for:
complete disclosure of the agency's financial results; adequate financial
information for agency management and for formulation and execution of the
budget; and effective control over revenue, expenditure, funds, property, and
other assets.

In accordance with a Federal requirement that a detailed evaluation of agency
financial systems shall be conducted on a cyclical basis, an audit of the USITC
financial statements was conducted. The objectives of this audit were to issue
an opinion as to the fairness of the USITC financial statements for the fiscal
years ending September 30, 1992, and 1991, in presenting the financial condition
and results of operations; a statement on the adequacy of internal controls; and
a statement on compliance.

The audit was conducted by Urbach Kahn & Werlin PC in accordance with the
Government Auditing Standards issued by the Comptroller General of the United
States. The auditors expressed the following opinions:

            The statements of financial position of the USITC as of September
            30, 1992, and 1991, and the related statements of operations and
            cumulative results of operations, cash flows, and reconciliation to
            budget for the years then ended, present fairly, in all material
            respects, the financial position of the USITC as of September 30,
            1992, and 1991, and the results of its operations, cash flows, and
            reconciliation to budget for the years then ended, in conformity with
            generally accepted accounting principles (page 1).

            No matters involving the internal control structure and its operation
            were considered to be material weaknesses, although certain
            suggestions involving the internal control structure and its
            operation are reported in a letter to USITC management (pages 2
            and 16).
              For the items tested, USITC complied in all material respects with
              the provisions of applicable laws and regulations that could have
              a material effect on the financial statements. For the items not
              tested, nothing came to their attention that caused the auditors to
              believe that USITC had not complied, in all material respects, with
              such provisions (page 4).

As a result of their review, the auditors suggested that the appropriate
officials in the Office of Administration:

              implement enhanced controls to ensure that duplicate payment schedule
              numbers are not assigned;

              adjust the accounts payable balance to properly cut off at year end;

              review all purchase requisitions to verify all required signatures
              are present;

              apportion all appropriations in accordance with the Antideficiency
              Act;

              maintain a cash receipts log;

              implement controls to ensure that all journal vouchers posted are
              in balance for budgetary and proprietary accounts; and

              amend the policy for compensatory time to adequately reflect the
              policy for separated employees.

The Director of Administration concurred with the findings and suggestions. A
summary of the Director's comments is presented after each finding on pages 17
through 21 of the report.     The Director's comments are presented in their
entirety as an appendix to the report.


                                        ~~~JA/1
                                     ~:~      E.   A~;:~:;:~'   ,
Attachments
                                 TABLE OF CONTENTS


                                                                           Page

INDEPENDENT AUDITOR'S REPORT ON THE FINANCIAL STATEMENTS                     1

INDEPENDENT AUDITOR'S REPORT ON THE INTERNAL CONTROL STRUCTURE               2

INDEPENDENT AUDITOR'S REPORT ON COMPLIANCE WITH LAWS AND
      REGULATIONS .••••...................•............................      4

FINANCIAL STATEMENTS

      Statements of financial position •..••..•.......•..•.•.•..•..•..••     6

      Statements of operations and cumulative results of operations ..•      7

      Statements of cash flows                                               8

      Statements of reconciliation to budget •.......•..•...........•..      9

      Notes to financial statements •.•..••................•.••......•. 10

MANAGEMENT LETTER .•••.•••............••••••.••..........•............. 16

Appendix -   Memorandum from the Director of Administration, dated
             May 24, 1993, on Draft Report
UK Urbach Kahn & Werlin PC
&W CERTIFIED PUBLIC ACCOUNTANTS


                                     INDEPENDENT AUDITOR'S REPORT


      The Commissioners
      United States International Trade Commission

      Office of Inspector General
      United States International Trade Commission


      We have audited the accompanying statements of financial pOSItIOn of the United States
      International Trade Commission (USITC) as of September 30, 1992 and 1991, and the related
      statements of operations and cumulative results of operations, cash flows, and reconciliation to
      budget for the years then ended. These financial statements are the responsibility of USITC
      management. Our responsibility is to express an opinion on these financial statements based on
      our audits.

     We conducted our audits in accordance with generally accepted auditing standards and
     Government Auditing Standards, issued by the Comptroller General of the United States. Those
     standards require that we plan and perform the audit to obtain reasonable assurance about
     whether the financial statements are free of material misstatement. An audit includes examining,
     on a test basis, evidence supporting the amounts and disclosures in the financial statements. An
     audit also includes assessing the accounting principles used and significant estimates made by
     management, as well as evaluating the overall financial statement presentation. We believe that
     our audits provide a reasonable basis for our opinion.

     In our opinion, the financial statements referred to above present fairly, in all material respects,
     the financial position of the United States International Trade Commission as of September 30,
     1992 and 1991, and the results of its operations, its cash flows, and reconciliation to budget for
     the years then ended in conformity with generally accepted accounting principles.




     Washington, DC
     April 2, 1993




                                                                       -1-
                     1200 Seventeenth Street NW, WashIngton, DC 20036 (202) 296-2020 FAX (202) 223-8488
                                    WorldWide CO\'f.:ragl.' through Urh~ch Ha.k,..r 'r:')ung International
UK Urbach Kahn & Werlin PC
&W CERTIFIED PUBLIC ACCOUNTANTS

                                   INDEPENDENT AUDITOR'S REPORT
                                ON THE INTERNAL CONTROL STRUCTURE



      The Commissioners
      United States International Trade Commission

      Office of Inspector General
      United States International Trade Commission


      We have audited the financial statements of the United States International Trade Commission
      (USITC) as of and for the years ended September 30, 1992 and 1991, and have issued our report
      thereon dated April 2, 1993.

      We conducted our audits in accordance with generally accepted auditing standards and
      Government Auditing Standards, issued by the Comptroller General of the United States. Those
      standards require that we plan and perform the audit to obtain reasonable assurance about
      whether the financial statements are free of material misstatement.

      In planning and performing our audits of the financial statements of USITC for the years ended
      September 30, 1992 and 1991, we considered its internal control structure in order to determine
      our auditing procedures for the purpose of expressing our opinion on the financial statements, not
      to provide assurance on the internal control structure.

     The management of USITC is responsible for establishing and maintaining an internal control
     structure. In fulfilling this responsibility, estimates and judgments by management are required
     to assess the expected benefits and related costs of internal control structure policies and
     procedures. The objectives of an internal control structure are to provide management with
     reasonable, but not absolute, assurance that assets are safeguarded against loss from
     unauthorized use or disposition, and that transactions are executed in accordance with
     management's authorization and recorded properly to permit the preparation of financial
     statements in accordance with generally accepted accounting principles. Because of inherent
     limitations in any internal control structure, errors or irregularities may nevertheless occur and not
     be detected. Also, projection of any evaluation of the structure to future periods is subject to the
     risk that procedures may become inadequate because of changes in conditions or that the
     effectiveness of the design and operation of policies and procedures may deteriorate.

     For purposes of this report, we have classified the significant internal control structure policies and
     procedures in the following categories:

             •      Treasury/cash,
             •      Purchasing, liabilities and disbursements,
             •      Property and equipment,
             •      Payroll, and
             •      Finandal reporting.



                                                                   -2-
                      1200 Seventeenth Street NW, Washington, DC 20036 (202) 296-2020 FAX (202) 223-8488
                                     Worldwide Coverage through Urbach Hacker Young lnrer national
                              INDEPENDENT AUDITOR'S REPORT
                     ON THE INTERNAL CONTROL STRUCTURE, CONTINUED



     For each of the internal control structure categories previously listed, we obtained an
     understanding of the design of relevant policies and procedures and whether they have been
     placed in operation. We also assessed control risk.

     Our consideration of the internal control structure would not necessarily disclose all matters in the
     internal control structure that might be material weaknesses under standards established by the
     American Institute of Certified Public Accountants. A material weakness is a condition in which
     the design or operation of one or more of the specific internal control structure elements does not
     reduce to a relatively low level the risk that errors or irregularities (in amounts that would be
     material in relation to the financial statements being audited) may occur and not be detected within
     a timely period by employees in the normal course of performing their assigned functions. We
     noted no matters involving the internal control structure and its operations that we consider to be
     a material weaknesses as defined above.

     We did, however, provide written management suggestions relative to the internal control
     structure and its operation that we have included in pages 1 6-21 of this report.

     This report is intended for the information of the Office of Inspector General, and the
     Commissioners and management of USITC. This restriction is not intended to limit the distribution
     of this report, which is a matter of public record.




     Washington, DC
     April 2, 1993




UK                                                   -3-
&W
UK Urbach Kahn & Werlin PC
&W CERTIFIED PUBLIC ACCOUNTANTS


                             INDEPENDENT AUDITOR'S REPORT
                       ON COMPLIANCE WITH LAWS AND REGULATIONS




      The Commissioners
      United States International Trade Commission

      Office of Inspector General
      United States International Trade Commission


      We have audited the financial statements of the United States International Trade Commission
      (USITC) as of and for the years ended September 3D, 1992 and 1991, and have issued our report
      thereon dated April 2, 1993.

      We conducted our audits in accordance with generally accepted auditing standards and
      Government Auditing Standards, issued by the Comptroller General of the United States. Those
      standards require that we plan and perform the audit to obtain reasonable assurance about
      whether the financial statements are free of material misstatement.

      Compliance with laws and regulations applicable to USITC is the responsibility of USITC's
      management. As part of obtaining reasonable assurance about whether the financial statements
      are free of material misstatement, we performed tests of USITC's compliance with the following
      laws and regulations:

             •      Budget and Accounting Procedure Act
             •      Antideficiency Act
             •      Federal Managers Financial Integrity Act
             •      Prompt Payment Act
             •      Compensation & Benefits Act
             •      Tariff Act of 1930
             •      Trade Act of 1974
             •      Trade Agreements of 1979
             •      Agricultural Adjustments Act
             •      Section 1911 of the Financial Institution Regulatory and Interest Rate Control Act
                    of 1978
             •      12 U.S.C. 635a-2
             •      Trade and Tariff Act of 1984
             •      Omnibus Trade and Competitiveness Act of 1988

      However, the objective of our audits was not to provide an opinion on overall compliance with
      such provisions. Accordingly, we do not express such an opinion.




                                                                  -4-
                     1200 Seventeenth Street NW, Washingron, DC 20036 (202) 296·2020         FAX (202) 223-8488
                                    Worldwide Coverage through Urbach Hacker Young International
                          INDEPENDENT AUDITOR'S REPORT
               ON COMPLIANCE WITH LAWS AND REGULATIONS, CONTINUED


     The results of our tests indicate that, with respect to the items tested, USITC complied, in all
     material respects, with the provisions referred to in the preceding paragraph. With respect to
     items not tested, nothing came to our attention that caused us to believe that USITC had not
     complied, in all material respects, with those provisions.

     This report is intended for the information of the Office of Inspector General and the
     Commissioners and management of USITC. This restriction is not intended to limit the distribution
     of this report, which is a matter of public record.




     Washington, DC
     April 2, 1993




UK
&W
                  UNITED STATES INTERNATIONAL TRADE COMMISSION

                             STATEMENTS OF FINANCIAL POSITION
                                  September 30, 1992 and 1991



                          ASSETS

                                                             1992            1991
CURRENT ASSETS
 Fund balances with U.S. Treasury (Note 2)            $ 8,017,511     $ 6,779,959
 Receivables (Note 2)                                        27,682
 Advances and prepayments (Note 2)                           35.965          19.175
      Total current assets                                8,081,158       6,799,134

FURNITURE, EQUIPMENT, AND LEASEHOLD
 IMPROVEMENTS (Notes 2, 3 and 5)                          5.813.372       9.542.508

                                                      $13,894,530     $16.341.642


    LIABILITIES AND U.S. GOVERNMENT EaUITY

LIABILITIES           .
  Accounts payable                                    $    598,258    $     315,309
  Accrued payroll and benefits                             904,994        1,618,298
  Accrued unfunded annual leave and benefits (Notes
   2 and 7)                                               2,229,807       2,091,539
  Funds held in escrow (Notes 2 and 4)                      265,000
  Deposits (Note 2)                                          33.529           1.191
       Total liabilities                                  4,031.588       4,026,337

COMMITMENTS AND CONTINGENCIES

U.S. GOVERNMENT EQUITY (Note 5)
  Unexpended appropriations                               6,215,730     4,845,161
  Invested capital                                        3,583,565     7,450,969
  Cumulative results of operations                           63.647        19.175
       Total U.S. Government equity                       9,862,942    12.315.305

                                                      $13,894.530     $16.341.642




See notes to financial statements.


                                             -6-
                 UNITED STATES INTERNATIONAL TRADE COMMISSION

  STATEMENTS OF OPERATIONS AND CUMULATIVE RESULTS OF OPERATIONS
                              Years Ended September 30, 1992 and 1991




APPROPRIATIONS EXPENSED                                   $ 40,603,379   $ 38.085.321


EXPENSES
  Salaries                                                  23,734,220    21,582,785
  Personnel benefits                                         4,460,158     4,141,539
  Travel expenses                                              554,979       501,960
  Rental and communications services                         8,204,998     7,390,839
  Other services                                             2,167,799     2,534,087
  Printing and reproduction                                    202,530       212,801
  Supplies and materials                                       784,493       803,005
  Equipment                                                    449,730       927,737
        Total expenses                                      40,558,907    38,094,?53


Excess of appropriations expensed over expenses
 (expenses over appropriations expensed)                        44,472         (9,432)

Cumulative results of operations, beginning of year             19,175        28.607

Cumulative results of operations, end of year                   63,647        19,175




See notes to financial statements.




                                                ·7-
                  UNITED STATES INTERNATIONAL TRADE COMMISSION

                                     STATEMENTS OF CASH FLOWS
                              Years Ended September 30, 1992 and 1991



                                                                    1992                   1991
CASH FLOWS FROM OPERATING ACTIVITIES
  Appropriations received                                 $ 42,434,000          $ 40,299,000
  Appropriations refunded by Treasury                                              1,307,166
  Appropriations used                                         (40,634,025)       (37,826,860)
     Net cash provided by operating activities                  1,799,975          3,779,306

CASH FLOWS FROM INVESTING ACTIVITIES
 Purchases of furniture, equipment, and leasehold
  improvements                                                     (562.423)             (448.431)
     Net cash used by investing activities                         (562.423)             (448.431)

Net increase in obligated funds with U.S. Treasury                1,237,552             3,330,875

Fund balances with U.S. Treasury, beginning of year               6,779,959             3.449.084

Fund balances with U.S. Treasury, end of year             $       8,017 .511    $       6.779.959


RECONCILIATION OF EXCESS OF APPROPRIATIONS
EXPENSED OVER EXPENSES (EXPENSES OVER
APPROPRIATIONS EXPENSED) TO NET CASH
PROVIDED BY OPERATING ACTIVITIES

Excess of appropriations expensed over expenses
 (expenses over appropriations expensed)                      $      44,472         $      (9,432)

Adjustments to reconcile excess of appropriations
expensed over expenses to net cash provided by
operating activities
     Unexpended appropriations                                    1,370,569             3,446,832
     Net appropriations used in investing activities                562,423               448,431
     Changes in:
        Receivables                                                  (27,682)              28,607
        Advances and prepayments                                     (16,790)             (19,175)
       Accounts payable                                             282,949              (274,694)
       Accrued payroll and benefits                                (713,304)              157,546
       Funds held in escrow                                         265,000
       Deposits                                                       32.338                1.191
         Net cash provided by operating activities       $        1,799.975     $       3.779,306




See notes to financial statements.




                                               -8-
                 UNITED STATES INTERNATIONAL TRADE COMMISSION

                       STATEMENTS OF RECONCILIATION TO BUDGET
                              Years Ended September 30, 1992 and 1991




RELATION OF EXPENSES TO OUTLAYS
  Expenses                                                 $40,558,907     $38,094,753
 Adjustments to expenses
     Capital expenditures                                      562,423         448,431
     Transaction excluded from budget reports                  (99,305)       (371,928)
     Changes in:
       Receivables                                              27,682         (28,a07)
       Advances and prepayments                                 16,790          19,175
       Accounts payable                                       (282,949)        274,694
       Accrued payroll and benefits                            713.304        (157,546)

       Net outlays, per budget- report                     $41,496,852     $38,278.972


RELATION OF OBLIGATIONS TO OUTLAYS
  Obligations incurred                                     $43,584,468     $40,523,449
  Appropriations refunded by Treasury                                        1,307,166
  Fund balances with U.S. Treasury, beginning of year        6,779,959       3,449,084
 Fund balances with U.S. Treasury, end of year              (8,017,511 ,    (6,779,959)
 Adjustments to expired accounts                              (850,064)       (220.768l

       Net outlays, per budget report                      $41,496.852     $38,278.972




See notes to financial statements.




                                                -9-
           UNITED STATES INTERNATIONAL TRADE COMMISSION

                       NOTES TO FINANCIAL STATEMENTS
                           September 30, 1992 and 1991


NOTE 1. ORGANIZA TION

        Background and mission - The United States International Trade Commission (USITC)
        is an independent agency of the executive branch of the U.S. Government created by
        an act of Congress. USITC is headed by six commissioners, appointed by the
        President and confirmed by the U.S. Senate for nine-year terms. The President
        designates the chairman and vice chairman, both of whom each serve two-year terms.

        USITC conducts investigations and reports findings relating to imports and the effect
        of imports on industry, the effect of foreign subsidies on the sale of imports, unfair
        import practices and the effect of agricultural imports on programs of the U.S.
        Department of Agriculture. USITC advises the President on the probable economic
        effect of proposed trade agreements with foreign countries. USITC also conducts
        comprehensive studies and provides reports on issues relating to international trade
        and economic policy matters on behalf of both the Congress and President.

        Financing sources - USITC receives annual funding for operations from appropriations.
        Appropriations are recognized as revenue and "expensed" when related operating
        expenses are incurred. Differences between appropriations received and expensed are
        included in unexpended appropriations.


NOTE 2. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

       The following is a summary of significant accounting policies:

       Basis of accounting - USITC's financial statements are presented on the accrual basis
       of accounting and in accordance with Title 2, GAO Policy and Procedures Manual for
       Guidance of Federal Agencies, which is substantially equivalent to generally accepted
       accounting principles. USITC's fiscal year is October 1 to September 30.

       Appropriations - Congress appropriated $42,434,000 and $40,299,000 to USITC for
       general operations for fiscal years 1992 and 1991, respectively. Congress has
       appropriated $44,852,000 to USITC for fiscal year 1993.

       Fund balances with the U.S. Treasury - Fund balances with the U.S. Treasury
       represent appropriated funds in the custody of the U.S. Treasury and are available for
       payment of USITC obligations. USITC's fund balances are carried forward until goods
       or services are received and payment is made, or until such time as funds are
       deobligated.

       Receivables - Receivables consist of a monetary penalty (see Note 8), appropriations,
       and certain miscellaneous public receivables.

       Advances and prepayments - Advances and prepayments consist of employee travel
       advances and certain miscellaneous prepayments.




                                          -10-
           UNITED STATES INTERNATIONAL TRADE COMMISSION

                      NOTES TO FINANCIAL STATEMENTS
                            September 30, 1992 and 1991


NOTE 2. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES, CONTINUED

       Furniture, equipment and leasehold improvements - As more fully disclosed under Note
       3, furniture and equipment additions are recorded at cost with a corresponding entry
       to invested capital. Furniture and equipment which have been transferred to USITC
       from other Federal agencies is recorded at original cost. The costs of leasehold
       improvements performed by GSA, but financed by USITC, are capitalized. Assets are
       carried at original cost until USITC disposes of them. It is the policy of USITC not to
       depreciate assets because they are construed to be non-revenue producing in nature.

       Leeses  >   As more fully disclosed in Note 6, USITC leases its office and storage
       facilities under agreements with the General Services Administration (GSA).

       Accrued unfunded annual leave and benetits Annual leave is accrued as it is earned,
                                                     >



       although it is not funded until it is utilized by employees. Sick, compensatory and
       certain other types of leave are not accrued and are expensed when utilized by the
       employee. Unfunded benefits (a liability account) represent the accrual for unfunded
       workers' compensation liability.

       Funds held in escrow • As more fully disclosed under Note 4, funds held in escrow
       consist of bonds held in escrow as the result of an investigation.

       Deposits - Deposits consist of a monetary penalty payable to the U.S. Treasury (see
       Note 8) and certain miscellaneous deposits.

       Invested capital-Invested capital represents U.S. Government appropriations invested
       in furniture, equipment, and leasehold improvements, net of the accrued unfunded
       annual leave and benefits.

       Intergovernmental activities - USITC records and reports only those Government-wide
       financial matters for which it is responsible for and identifies only those financial
       matters with the department or agency that USITC has been granted budget authority
       and resources to manage.


NOTE 3. FURNITURE, EQUIPMENT AND LEASEHOLD IMPROVEMENTS

       Furniture, equipment and leasehold improvements are recorded at cost and consist of
       the following:
                                                             September 30


          Furniture and equipment                        $ 3,372,698       $ 7,101,834
          Leasehold improvements                           2,440,674         2.440.674

                                                         $ 5,813.372       $ 9,542.508




                                          -11-
                    UNITED STATES INTERNATIONAL TRADE COMMISSION

                                   NOTES TO FINANCIAL STATEMENTS
                                             September 30, 1992 and 1991

NOTE 4. FUNDS HELD IN ESCROW

               Funds held in escrow (a liability account) consist of bonds posted by respondents to
               USITC action as a result of an investigation on unfair importing practices into the
               United States. The bonds are being held in escrow pending the outcome of legal
               proceedings. Subsequent to year end, $225,000 of these bonds were refunded to the
               respondents.


NOTE 5. U.S. GOVERNMENT EQUITY

               The activity in the U.S. Government equity accounts for the fiscal years ended
               September 30, 1992and 1991 was as follows:

                                                                                                   Cumulative
                                       Unexpended                     Invested                     Results of
                                      Appropriations                   Capital                     Operations

U.S. Government Equity,
October 1, 1990                       $     1,398,329             $   7,158,712                $       28,607             $     8,585,648

  Appropriations received                 40,299,000                                                                          40,299,000
  Appropriations refunded by
    Treasury                                1,307,166                                                                           1,307,166
  Appropriations used to fund
    purchase     of furniture,
    equipment and leasehold
    improvements                             (448,431 )                 448,431
  Appropriations used to fund
    operating expenses                    (38,085,321 )                                            38,085,321
  Appropriations expensed                     374,418                                             (38,094,753)                (37,720,335)
  Increase in unfunded leave
    and benefits                                                        (156,174)                                                (156,174)

u.s.Government Equity,
September 30, 1991                         4,845,161                  7,450,969                        19,175                 12,315,305

  Appropriations received                 42,434,000                                                                          42,434,000
  Appropriations used to fund
    purchase     of furniture,
    equipment and leasehold
    improvements                             (562,423)                  562,423
  Appropriations used to fund
    operating expenses                   (40,603,379)                                           40,603,379
  Appropriations expensed                    102,371                                           (40,558,907)                   (40,456,536)
  Increase in unfunded leave
    and benefits                                                       (138,268)                                                 (138,268)
  Adjustment to write-off
    furniture and equipmentfAJ                                        (4,291,559)                                              (4,291,559)

U.S. Government Equity,
September 30, 1992                   $     6,215,730             $    3,583,565               $        63,647             $    9,862,942

  fAJ USITC implemented a capitalization policy for furniture and equipment during the 1992 fiscal year to require a/l property and
       equipment with an initial acquisition cost of $5,000 or more and an estimated service life of two years or greater to be capitalized.
       As 8 result, USITC wrote-off all furniture and equipment on hand which did not meet the capitalization criteria. The effect of this
       adjustment was a decrease in the furniture, equipment and leasehold improvements account, with a corresponding decrease in
       the invested capital account, both in the amount of $4,291,559, This adjustment had no impact upon USITC's results of
       operations..



                                                             -12-
          UNITED STATES INTERNATIONAL TRADE COMMISSION

                      NOTES TO FINANCIAL STATEMENTS
                            September 30, 1992 and 1991

NOTE 5. U.S. GOVERNMENT EQUITY, CONTINUED

       Unexpended appropriations include approximately $4,018,000 and $2,769,000 of
       unobligated balances as of September 30, 1992 and 1991, respectively. There were
       no appropriations returned in fiscal year 1992 or 1991.


NOTE 6. LEASING ARRANGEMENTS

       All USITC office space is leased through GSA under a cancelable ten-year operating
       lease agreement. The lease provides for amended base annual rental payments which
       are increased annually in accordance with operating cost and real estate tax escalation
       clauses. In addition, annual agreements are negotiated for other occupancy costs and
       services.

       GSA charges USITC for the cost of the lease plus a contribution to the Federal
       Buildings Fund. Lease expense for office space during fiscal years 1992 and 1991
       was approximately $7,043,000 and $6,387,000, respectively.

       The estimated future minimum rental payments, exclusive of escalation and other
       occupancy costs, as of September 30, 1992, is as follows:


                     September 30                              Amount

                         1993                               $ 5,060,000
                         1994                                 5,060,000
                         1995                                 5,060,000
                         1996                                 5,060,000
                         1997                                 5,060,000
                       Thereafter                             2,952,000

                                                           $ 28,252,000 .


       Escalations paid were approximately $1,983,000 and $1,327,000 for the years ended
       September 30, 1992 and 1991, respectively. The GSA lease expires in April 1998.

       USITC also has various other annual and month-to-month leases for certain equipment
       and storage space.




                                          -13-
           UNITED STATES INTERNATIONAL TRADE COMMISSION

                      NOTES TO FINANCIAL STATEMENTS
                          September 30. 1992 and 1991


NOTE 7. EMPLOYEE BENEFIT PROGRAMS

       Retirement - Substantially all of USITC's employees are covered under either the Civil
       Service Retirement System (CSRS) or the Federal Employees Retirement System
       (FERS). For employees covered under CSRS (those employees hired prior to January
       " 1984), USITC withholds approximately 7 percent of each employee's salary and
       contributes a matching amount to the fund. CSRS covered employees do not have
       FICA withholdings and, thus, are not fully eligible to receive Social Security benefits.
       For employees covered under FERS (generally those employees hired on or after
       January 1, 1984), USITC withholds, in addition to FICA withholdings, approximately
       0.8 percent of employee gross earnings, and matches such withholdings with a 7
       percent contribution..

       Under FERS, employees also receive retirement benefits from Social Security and, if
       applicable, benefits from a defined contribution plan (thrift). Under the thrift plan, an
       employee may contribute (tax deferred) up to 10 percent of salary to an investment
       fund. USITC then matches this amount up to 5 percent. Those employees which
       elected to remain under CSRS after January " , 984 continue to receive benefits in
       place, and may also contribute (tax deferred) up to 5. percent of their salary to the
       thrift plan, but with no matching amount contributed by USITC.

       CSRS and FERS are multi-employer plans. Although USITC funds a portion of pension
       benefits relating to its employees, and provides for the necessary payroll withholdings,
       it does not maintain or report information with respect to the assets of the plans, nor
       does it report actuarial data with respect to accumulated plan benefits or the unfunded
       pension liability relative to its employees. The reporting of such amounts is the
       responsibility of the U.S. Office of Personnel Management.

       USITC's contribution to both plans was approximately $2,240,000 and $2,022,000
       for the years ended September 30, 1992 and 199', respectively.

       Accrued leave - USITC's employees are entitled to accrue annual leave (vacation and
       personal time) and sick time based on their years of service. Annual leave may be
       accrued up to 240 hours per employee, for substantially all employees, and is payable
       based on the employee's annual salary upon separation. There is no maximum limit
       on sick time which may be accrued, however, any unused sick time is not paid to
       employees upon separation.

       Health benefits and life insurance - USITC, through the federal government, offers
       health and life insurance plans, under which premium costs for health care are shared
       between USITC and the employees. The substantial portion of life insurance premiums
       are paid for by employees.         Amounts paid by USITC for health care were
       approximately $1,209,000 and $1,092,000 for the years ended September 30, 1992
       and 199', respectively.
           UNITED STATES INTERNATIONAL TRADE COMMISSION

                      NOTES TO FINANCIAL STATEMENTS
                             September 30, 1992 and 1991


NOTE 8. COMMITMENTS AND CONTINGENCIES

       Committed obligations - USITC is committed under certain obligations incurred for
       goods or services ordered but not yet received. Aggregate orders not received at
       September 30, 1992, and 1991, reflected as unexpended appropriations in the
       accompanying financial statements, amounted to approximately $2,198,000 and
       $2,076,000, respectively.

       Unpaid compensatory time - USITC policy provides for the accumulation of
       compensatory time for employees for overtime hours worked. The policy presently
       does not address USITC's liability payable to an employee for compensatory time upon
       separation. Legal counsel recently determined that certain separated employees will
       be entitled to reimbursement for their compensatory time at the time of their
       departure. In this regard, the liability relating to this matter is not considered by
       management to be material and has not been reflected in the financial statements.

       Monetary penalty receivable - During fiscal year 1992, USITC was awarded a claim
       against a Canadian firm for patent infringement violations on goods imported into the
       United States. A monetary penalty was assessed at $100,000 of which $87,500 was
       outstanding as of September 30, 1992 ($25,000 of which was subsequently
       received). The Canadian firm has since filed for bankruptcy protection under Canadian
       law. The remaining $62,500 has not been recorded as a receivable, as collection of
       any future monies against this claim is uncertain.

       Legal- USITC is a party in various administrative proceedings, legal actions, and claims
       brought by or against it. In the opinion of USITC management and legal counsel, the
       ultimate resolution of these proceedings, actions and claims will not materially affect
       the financial position or the operating results of USITC.

       Certain legal matters to which USITC may be a named party are administered by
       USITC and, in some instances, litigated by other Federal agencies, and amounts to be
       paid under any decision, settlement or award pertaining thereto are generally funded
       by those agencies. In most cases, tort claims, including personal injury claims, are
       administered, approved and resolved by the U.S. Department of Justice, and any
       amounts, for awards in excess of $2,500, necessary for resolution are obtained from
       a special fund maintained by the U.S. Treasury. Legal issues brought by employees
       of USITC, are administered by the U.S. Department of Labor.               The cost of
       administering, litigating, and resolving these legal matters, including payment of any
       damages, are not allocated to other Federal agencies.




                                          -15-
UK   Urbach Kahn & Werlin PC
&W   CERTIFIED PUBLIC ACCOUNTANTS




     The Commissioners
     United States International Trade Commission

     Office of Inspector General
     United States International Trade Commission


     As part of our audits of the financial statements of the United States International Trade
     Commission (USITC) for the years ended September 30, 1992 and 1991, we considered USITC's
     internal control structure in order to determine our auditing procedures and for the purpose of
     expressing our opinion on the financial statements, not to provide assurance on the internal control
     structure.

     During the course of our audits, certain matters came to our attention which we believe warrant
     management's attention. These matters, which were considered by us during our audit and do
     not modify the opinion expressed in our auditor's report dated April 2, 1993, along with our
     related suggestions, are described in this report.

     This report is intended solely for the use of the Office of Inspector General (DIG) and the
     Commissioners and management of USITC. This restriction is not intended to limit the distribution
     of this report which, upon acceptance by the DIG, is a matter of public record.




     Washington, DC
     April 2, 1993




                                                                 -16-
                     1200 Seventeenth Street NW, Washington. DC 20036 (202) 296-2020 FAX (202) 223-8488
                                    WorldwIde Coverage through Urbach Hacker Young Imcr narional
             UNITED STATES INTERNATIONAL TRADE COMMISSION
                           Management suggestions
                  Years ended September 30, 1992 and 1991


1.   THE OFFICE OF FINANCE AND BUDGET SHOULD CONSIDER IMPLEMENTING ENHANCED
     CONTROLS TO ENSURE THA T DUPLICATE PA YMENT SCHEDULE NUMBERS ARE NOT
     ASSIGNED TO PURCHASES OF GOODS AND SERVICES.

     Finding/Suggestion

     USITe disburses payments to vendors utilizing the SF-1166 "Voucher & Schedule of
     Payments". USITC accounting clerks assign sequential numbers to the SF-1166's based
     on the funding year of the payment and are required to record the numbers assigned on
     a log sheet. The SF-1166's payment information also is entered into the dBase log system
     by the accounting clerks. We noted, however, that the dBase log system allows duplicate
     SF-1166 numbers to be assigned. We also noted that the log sheet utilized to track the
     last SF-1166 number assigned was not always updated by the accounting clerks and, thus,
     resulted in duplicate numbers assigned within the same funding year.

     We suggest that Director of the Office of Finance and Budget implement the following
     procedures to reduce the likelihood of duplicated numbers:

     •      issue memoranda to the accounting staff directing the use of the log sheet to track
            the payment schedule numbers,

     •      periodically review the log sheet to verify completeness, and

     •      consider modification of the vendor payment system to prevent the assignment of
            duplicate numbers.

     Management's Response

     "The Office of Finance and Budget will revise the operating procedures of the vendor
     payment system to assure that all payment schedule numbers are sequential and recorded
     in the dBase log prior to preparation of the SF-1155's. The Finance Division Chief will
     instruct the accounting technicians on the revised procedures, and review the dBase log
     on a monthly basis to verify compliance with those procedures.

2.   THE OFFICE OF FINANCE AND BUDGET SHOULD ADJUST THE ACCOUNTS PA YABLE
     BALANCE TO PROPERL Y CUT OFF A T YEAR END.

     Finding/Suggestion

     USITC's accrual basis financial statements are prepared at year end. In this regard, the
     Office of Finance and Budget records certain liabilities, such as accrued payroll and accrued
     unfunded annual leave, at year end. The Office of Finance and Budget does not, however,
     record accounts payable for invoices received subsequent to the fiscal year end which
     relate to services rendered or goods received prior to the fiscal year end. As a result, we
     noted a number of invoices received in October and November, following the respective
     year ends, for goods and services rendered prior to year end, which were not included in
     year end accounts payable.




                                             -17-
             UNITED STATES INTERNATIONAL TRADE COMMISSION
                           Management suggestions
                  Years ended September 30, 1992 and 1991


     We suggest that the Office of Finance and Budget establish procedures at the end of each
     fiscal year to identify and record, as accounts payable, invoices subsequently received
     which relate to the fiscal year.

     Management's Response

     "The Office of Finance and Budget will revise the operating procedures to provide for all
     invoices received subsequent to the fiscal year end, until the day the accounting records
     are closed, which relate to services rendered or goods received prior to the fiscal year end,
     to be recorded as accounts payable.         The Finance Division Chief will instruct the
     accounting technicians on the revised procedures."

3.   THE PROCUREMENT DIVISION SHOULD REVIEW ALL PURCHASE REQUISITIONS TO
     VERIFY ALL REQUIRED SIGNA TURES ARE PRESENT.

     Finding/Suggestion

     USITC policies and procedures require the Director of Management Service's signature on
     surplus property certifications to evidence that surplus property was checked before the
     requisition was sent to the Procurement Office for procurement action. There were a
     number of occasions where the surplus certification was not signed by the Director of
     Management Services. There also were circumstances where the Director of Management
     Services was the initiator and/or approver of the transaction and also the surplus certifier.

     In order to enhance controls, we suggest the following:

            •       procurements which are initiated, approved and certified by the Director of
                    Management Services should be reviewed and approved by the Director of
                    Administration before they are processed to procurement, and

            •       the Procurement Division should review the forms for completeness and
                    appropriate approvals before the purchase is processed.

     Management's Response

     "The appropriate Desktop Procedures will be changed to instruct appropriate OMS staff to
     forward to the Director, Office of Administration for his review and approval all
     procurements (requisitions) which are initiated, approved and certified by the Director,
     Office of Management Services.

     The Chief, Procurement Division will ensure that all forms are reviewed for completeness
     and appropriate approvals before the purchase is processed. n

4.   USITC SHOULD APPORTION ALL APPROPRIATIONS IN ACCORDANCE WITH THE ANTI-
     DEFICIENCY ACT.

     Finding/Suggestion

     The Anti-Deficiency Act requires that all appropriations be apportioned no later than 30
     days before the beginning of the fiscal year or 30 days after the date that appropriations

                                             -18-
             UNITED STATES INTERNATIONAL TRADE COMMISSION
                           Management suggestions
                  Years ended September 30, 1992 and 1991


     are enacted into law. The Budget Division (within the Office of Finance and Budget)
     utilizes the Treasury warrant to apportion the appropriation received, rather than the date
     that the budget was enacted. As a result, the date of the Treasury warrant does not
     always coincide with the date that the appropriation was enacted into law. The
     appropriation for the year ended September 30, 1991 was enacted into law on November
     5, 1990, but was not apportioned by USITC until January 2, 1991.

     We suggest that the USITC apportion all appropriations in accordance with the Anti-
     deficiency Act to be in accordance with Federal laws, although this may require
     apportionment before USITC approval of the budget.

     Management's Response

     "The Director, Office of Finance and Budget will establish necessary procedures to assure
     that all apportionments are accomplished in accordance with appropriate laws and
     regulations. "

5.   THE OFFICE OF FINANCE AND BUDGET SHOULD MAINTAIN A CASH RECEIPTS LOG.

     Finding/Suggestion

     The Office of Finance and Budget receives numerous non-revenue cash receipts (many of
     which are subsequently transferred to the U.S. Treasury) which include: return of travel
     advances, Freedom of Information Act fees, library usage fees, health insurance
     reimbursements, travel agency reimbursements, and other fees and refunds. These
     receipts approximate $4,000 per month. At the time the Office of Finance and Budget
     receives cash and checks they are stored in a safe and, subsequently, USITC deposits the
     funds with the U.S. Treasury. It is not until the time that checks are removed from the
     safe (for deposit), that they are recorded in a deposit log. USITC did not maintain a cash
     receipts log to record receipts at the time they were received.

     We suggest that the Office of Finance and Budget maintain a cash receipts log for all cash
     receipts. This log should be maintained by an individual that does not have responsibility
     over deposits to ensure an adequate segregation of duties. Further, the cash receipts log
     should be reconciled to the deposit log and deposit slips on a monthly basis.

     Management's Response

     ..A cash receipt log has been established in the Office of Finance and Budget and operating
     procedures are being revised. The Office of Finance and Budget's secretary will maintain
     the cash receipts log for all checks and cash that are received. The Finance Division Chief
     will reconcile the cash receipts log to the deposit log and deposit slips monthly. The
     Finance Division Chief will instruct the accounting technicians on the revised procedures."




                                            -19-
             UNITED STATES INTERNATIONAL TRADE COMMISSION
                           Management suggestions
                  Years ended September 30, 1992 and 1991


6.   THE OFFICE OF FINANCE AND BUDGET SHOULD IMPLEMENT CONTROLS TO ENSURE
     THAT ALL JOURNAL VOUCHERS POSTED ARE IN BALANCE FOR BUDGETARY AND
     PROPRIETARY ACCOUNTS.

     Finding/Suggestion

     The general ledger maintained by the Office of Finance and Budget includes both budgetary
     and proprietary accounts.       Budgetary accounts record all budgetary transactions
     (apportionment and allotment of appropriations, undelivered orders). Proprietary accounts
     record actual transactions, as reflected in the financial statement balances. Budgetary and
     proprietary accounts balance independently of each other. Journal entries are posted to
     general ledger accounts via monthly transaction code entries and journal vouchers. The
     fiscal year 1991 general ledger contained a journal voucher entry which debited a
     budgetary account and credited a proprietary account, resulting in individual trial balances
     for the proprietary and budgetary accounts which did not balance.

     We suggest that the Office of Finance and Budget review budgetary and proprietary trial
     balances on a monthly basis to be sure that they balance. We further suggest that the
     Office of Finance and Budget maintain a written policy authorizing one individual to be
     responsible for the posting of all journal vouchers to the general ledger.

     Management's Response

     "The Office of Finance and Budget will revise the operating procedures to indicate that only
     the Finance Division Chief and the Operating Accountant are authorized to record journal
     vouchers in the accounting system. In addition, to assure accuracy, journal vouchers will
     be approved by the Director, Office of Finance and Budget prior to posting in the
     accounting system. The Finance Division Chief and the Director, Office of Finance and
     Budget shall review the trial balance on a monthly basis to assure that all budgetary and
     proprietary accounts are in balance independently of each other.

     The Office of Finance and Budget has informed the Department of Interior, Bureau of
     Reclamation of the audit finding that the current system will accept a debit/credit
     transaction between a budgetary and a proprietary account without warning the user of
     a possible imbalance."

7.   USITC SHOULD AMEND THE POLICY FOR COMPENSA TORY TIME TO 4DEQUA TEL Y
     REFLECT THE POLICY FOR SEPARATED EMPLOYEES.

     Finding/Suggestion

     USITC provides compensatory time to employees for overtime hours worked. The current
     policy for compensatory time does not adequately address the extent of liability, if any,
     USITC has for payment of unused compensatory time to employees upon separation of
     employment with USITC.

     We suggest that USITC amend the policy for compensatory time to address the issue of
     payment of unused compensatory time to separated employees.
       UNITED STATES INTERNATIONAL TRADE COMMISSION
                     Management suggestions
            Years ended September 30, 1992 and 1991


Management's Response

"The Director, Office of Administration willrecommend amendments to the overtime and
compensatory time directive (4304.1) for consideration by the Commission. However, it
is recommended that such changes be deferred until after the upcoming payroll/personnel
review is conducted since other matters related to overtime and compensatory time may
have to be addressed as a part of that audit. The payroll personnel review is scheduled to
start on or about June 1, 1993, with a final report on or about August 20, 1993.   II
            UNITED STATES INTERNATIONAL TRADE COMMISSION
                     Status of Prior Year Findings/Suggestions
                   Years ended September 30, 1992 and 1991
          (Relating to the Years Ended September 30, 1990 and 1989)

A.   THE OFFICE OF MANAGEMENT SERVICES SHOULD EXCLUDE FROM THE FIXED ASSET
     LISTINGS (FURNISHED TO THE OFFICE OF FINANCE AND BUDGET) ALL ITEMS VALUED
     AT LESS THAN $5,000 (UNLESS PROPERTY IS INCLUDED IN ACCORDANCE WITH GAO
     TITLE 2, SECTION P40.0B PERTAINING TO GROUPED ASSETS).

     Current status

     During fiscal year 1992, USITC's DIG performed a property management audit. The audit
     resulted in several findings in the area of property management. In response to the DIG's
     findings, the Office of Management Services removed all property from the property
     management system which did not meet the Title 2 capitalization criteria. Thus, this
     finding is considered resolved.

B.   THE MASTER PROPERTY LISTING SHOULD BE RECONCILED WITH THE FIXED ASSET
     LISTING.

     Current status

     The Office of Management Services now reports all property on the master property listing
     in a format which reconciles with the fixed asset listing. Thus, this finding is considered
     resolved.




                                            -22-
                                                               Appendix

                                                        AD-Q-417




UNITED STATES INTERNATIONAL TRADE COMMISSION

                      W ASHI:-JCTO:\. DC 20436




May 24, 1993


MEMORANDUM


TO:          Inspector General                            r   J1   V,,/.J.',
PROM:        Director, Office of       'AdJAinistrati~~~
SUBJECT:     Draft Report, -Audit of the USITC Pinancial
             Statements for Piscal Years 1992 and 1991-

As requested by your memorandum dated April 23, 1993,
(IG-Q-024), submitted herewith is the Office of
Administrationls response to the subject draft audit
report issued April 1993. In accordance with Section 11
of the USITC Directive 1701, the Commissioners have had an
opportunity to comment on the.response and the Chai~
has approved it (see attached memorandum). *

The Office of Administration agrees with all the audit
suggestions. The attached response includes the actions
to be taken and the target completion dates.

Please call me at 205-3131 or Bill Stuchhery at 205-3135
if you have any questions.


ATTACBMENTS

cc:     Director, Office of Pinance and Budget
        Director, Office of Management Services



                *   Note:   Memorandum not included in audit report.
         ADMDTISTRATJ:01f'S llBSP01fSE TO THE DHAPT ADDrr :REPORT
                OF TJIB USJ:TC PDIAIIC:IAL ST~S FOR.
                       PJ:Scu.. nmJlS 1992 AIID 1991


1•   THE OPF:ICB OF PDIAIlCB ABD BUDGET SHOULD CORSmn
     JlIPT,'RIIERTl:BG JlR!D\'RCED CORTJlOLS TO BIlSOkB 'l'JlAT DUPLICATE
     PA"DIBR'.l' SCHEDULE BtJIIBBRS DB 1IO'T ASSJ:GRBD TO PURCHASES OP
     GOODS A11D SBllVJ:CBS.

     Pinding/Suggestion

     USITC disburses payments to vendors utilizing the SF-1166
     "Voucher & Schedule of Payments-. USITC accounting clerks
     assign sequential numbers to the SF-1166's based on ~e
     funding year of the payment and are required to record the
     numbers assigned on a log sheet. The SP-1166's payment
     info~tion also is entered into the dBase log system by the
     accounting clerks. We noted, however, that the dBase log
     system allows duplicate SP-1166 numbers to be assigned. We
     also noted that the log sheet utilized to track the last SF-
     1166 number assigned was not always updated by the accounting
     clerks and, thus, resulted in duplicate numbers assigned
     wi th'in the same funding year.

     We suggest that Director of the Office of Pinance and Budget
     implement the following procedures to reduce the likelihood
     of duplicated numbers:

     o      issue memoranda to the accounting staff directing the
            use of the log sheet to track the payment schedule
            numbers,

     o      periodically review the log sheet to verify
            completeness, and

     o      consider modification of the vendor payment system to
            prevent the assignment of duplicate numbers.

RESPONSE:    AGPBB •

The Office of Pinance and Budget will revise the operating
procedures of the vendor payment system to assure that all payment
schedule numbers are sequential and recorded in the dBase log
prior to preparation of the SF-1166's. The Pinance Division Chief
will instruct the accounting technicians on the revised
procedures, and review the dBase log on a monthly basis to verify
compliance with those procedures.

TARGET COMPLBTJ:OH DATE:      June 30, 1993
2•    TBE OPF:ICB OF FDtABCB      .AJID   BUDGET SHOULD ADJUST TIlE ACCOOBTS
      PAYABLE BI"X,MfCB '1'0 PllOPBR.'1"!' COT OFF AT '!BAR ERD.

      Finding/Suggestion

      USITC's accrual basis financial statements are prepared at
      year end. In this regard, the Office of Finance and Budget
      records certain liabilities, such as accrued payroll and
      accrued unfunded annual leave, at year end. The Office of
      Finance and Budget does not, however, record accounts payable
      for invoices received subsequent to the fiscal year end which
      relate to services rendered or goods received prior to the
      fiscal year end. As a result, we noted a number of invoices
      received in October and November, following the respective
      year ends, for goods and services rendered prior to year end,
      which were not included in year end accounts payable.

      We suggest that the Office of Finance and Budget establish
      procedures at the end of each fiscal year to identify and
      record, as accounts payable, invoices subsequently received
      which relate to the fiscal year.

RESPORSB:    AGREE.

The Office of Finance and Budget will revise the operating
procedures to provide for all invoices received subsequent to the
fiscal year end, until the day the accounting records are closed,
which relate to services rendered or goods received prior to the
fiscal year end, to be recorded as accounts payable. The Finance
Division Chief will instruct the accounting technicians on the
revised procedures.

TARGET COIIPLB'J.":ICDJ DATE:   June 3 0 I       1993

3•    '.l'BB PROCD'JlBIJlmT D:rvJ:S:IOR SHOULD JlBVJ:BW UaL l'tJR.CHASB
      REQU:IS:ITJ:OJTS TO VBJU:PY ALL UQUDUm S:IGlD.TDllES AU: PRBSmr.r.

      Finding/Suggestion

      USITC policies and procedures require the Director of
      Management Service' s signature on surplus property
      certifications to evidence that surplus property was checked
      before the requisition was sent to the Procurement Office for
      procurement action. There were a number of occasions where
      the surplus certification was not signed by the Director of
      Management Services. There also were circumstances where the
      Director of Management Services was the initiator and/or
      approver of the transaction and also the surplus certifier.




                                             2
     In order to enhance controls, we suggest the following:

     o       procurements which are initiated, approved and
             certified by the Director of Management Services
             should be reviewed and approved by the Director
             of
             Administration before they are processed to
             procurement, and

     o       the Procurement Division should review the forms
             for completeness    and appropriate approvals before
             the purchase is processed.

:RBSPORSB:   AGRBB.

The appropriate Desktop Procedures will be changed to instruct
appropriate OMS staff to forward to the Director, Office of
Administration for his review and approval all procurements
(requisitions) which are initiated, approved and certified by the
Director, Office of Management Services.

The Chief, Procurement Division will ensure that all foxms are
reviewed for completeness and appropriate approvals before the
purchase is processed.

TARGET COKPLBT:IOB DAft:   June 30, 1993

4•   usrze SHOULD APPOIlTJ:OI1' ALL APPJWPlUATl:OHS Dl ACCORDARCE WJ:TB
     THE ARTl: - DBP:IC:Iacr ACr.

     Finding/Suggestion

     The Anti-Deficiency Act requires that all appropriations be
     apportioned no later Chan 30 days before the beginning of the
     fiscal year or 30 days after the date that appropriations are
     enacted into law.   The Budget Division (within the Office of
     Finance and Budget) utilizes the Treasury warrant to apportion
     the appropriation received, rather than the elate that the
     budget was enacted.    As a result, the date of the Treasury
     warrant does not always coincide with the date that the
     appropriation was enacted into law. The appropriation for the
     year ended September 30, 1991 was enacted into law on November
     5, 1990, but was not apportioned by OSITC until January 2,
     1991.

     We suggest that the OSITC apportion all appropriations in
     accordance with the Antideficiency Act to be in accordanoe with
     Federal laws, although this may require apportionment before
     OSITC approval of the budget.




                                   3
RESPORSB:   AGREE.

The Director, Office of Finance and Budget will establish necessary
procedures to assure that all apportionments are accomplished in
accordance with appropriate laws and regulations.

TARGET COIIPLBTIOII DAD:     June 30, 1993

5•   TBB OFPJ:CB OF    PDlAIlCB   ARD   BUDGET   SHOULD   MAJ:RTAm   A   CASH
     RECBJ:PTS LOG

     Finding/Suggestion

     The Office of Finance and Budget receives numerous non-revenue
     cash receipts (many of which are subsequently transferred to
     the u.s. Treasury), which include: return of travel advances,
     Freedom of Info~tion Act fees, library usage fees, health
     insurance reimbursements, travel agency ,reimbursements, and
     other fees and refunds. These receipts approximate $4, 000 per
     month. At the t~e the Office of Pinance and Budget receives
     cash and checks they are stored in a safe and, subsequently,
     USITC deposi ts the funds with the U. S • Treasury.  It is not
     unti.l the time that checks are removed from the safe (for
     deposit), that they are recorded in a deposit log. USITC did
     not maintain a cash receipts log to record receipts at the t~e
     they were received.

     We suggest that the Office of Finance and Budget maintain a
     cash receipts log for all cash receipts.   This log should be
     maintained by an individual that does Dot have respo~sibility
     over deposits to ensure an adequate segregation of duties.
     Further, the cash receipts log should be reconciled to the
     deposit log and deposit slips on a monthly basis.

RESPOBSB:   AGREE.

A cash receipt log has been established in the Office of Finance and
Budget and operating procedures are being revised.    The Office of
Finance and Budget's secretary will maintain the cash receipts log
for all checks and cash that are received.     The Finance Division
Chief will reconcile the cash receipts log to the deposit log and
deposit slips monthly. The Finance Division Chief will instruct the
accounting technicians on the revised procedures.

TARGET COIIPLETl:OB' DATE:   June 30, 1993


6•   THE OPF:ICB OP P:DI.UTCE ARD BUDGET SHOULD DlPL'DfRR'l' COBTROLS TO
     ERSURB THAT ALL JOlJ.RBAL votJCSEPS POSTED AJlB III BALAR'CB POll
     BUDGETARY .AIID P:R.OPJUBTARY ACCODBTS.


                                    4
     Finding/Suggestion

     The general ledger maintained by the Office of Finance and
     Budget includes both bUdgetary and proprietary accounts.
     Budget~ry   accounts   record   all   bUdgetary    transactions
     (apportionment and allotment of appropriations, undelivered
     orders). Proprietary accounts record actual transactions, as
     reflected in the financial statement balances. Budgetary and
     proprietary accounts balance independently of each other.
     Journal entries are posted to general ledger accounts via
     monthly transaction code entries and journal vouchers.      The
     fiscal year 1991 general ledger contained a journal voucher
     entry which debited a budgetary account and credited a
     proprietary account, resulting in individual trial balances for
     the proprietary and budgetary accounts which did not balance.
     We suggest that· the Office of Finance and Budget review
     budgetary and proprietary trial balances on a monthly basis to
     be sure that they balance. We further suggest that the Office
     of Finance and Budget maintain a written policy authorizing ODe
     individual to be responsible for the posting of all journal
     vouchers to the general ledger.

RBSPOllSE:   AGREE.

The Office of Finance and Budget will revise the operating
procedures to indicate that only the Finance Division Chief and the
Operating Accountant are authorized to record journal vouchers in
the accounting system.   In addition, to assure accuracy, journal
vouchers will be approved by the Director, Office of Pinance and
Budget prior to posting in the accounting system.      The Pinance
Division Chief and the Director, Office of Finance and Budget shall
review the trial balance on a monthly basis to assure that all
budgetary and proprietary accounts are in balance independently of
each other.
The Office of Finance and Budget has informed the Department of
Interior, Bureau of Reclamation of the audit finding ·that the
current system will accept a debit/credit transaction between a
budgetary and a proprietary account without warning the user of a
possible imbalance.

TARGET CCDlPLBTJ:OJf DATE:   JUDe 30, 1993

7.   USJ:TC SHOULD AMBRD THE POLJ:CY FOR COIIPDSATORY TIKB       TO
     ADEQUATELY REFLECT TIlE POLJ:CY FOR SEPARATED BllPLOYEES

      Find/Suggestion
     USITC provides compensatory time to employees for overtime

                                    5
     hours worked.   The current policy for compensatory t~e does
                          (Note: revised page to AD-Q-391, 5/6/93)

     not adequately address the extent of liability, if any, USITC
     has for payment of unused compensatory ttme to employees upon
     separation of employment with USITC.

     We suggest that USITC amend the policy for compensatory ttme
     to address the issue of payment of unused compensatory time to
     separated employees.


RESPONSB: AGREE.

The Director, Office of Administration will recommend amendments to
the overtime and compensatory time directive          (4304.1)  for
consideration by the Commission.   However, it is recommended that
such changes be deferred until after the upcoming payroll/personnel
review is conducted since other matters related to overtime and
compensatory time may have to be addressed as a part of that audit.
The payroll/personnel review is scheduled to start on or about June
1, 1993, with a final report on or about August 20, 1993.

TARGET COIIPLBTXOR DATE:   September 30, 1993




                                  6
